      INSPECfOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, D.C. 20436


August 24, 1992


                  UVIIW OF USIte· S SPACE UlIUlAtIOM CRARGIS



Space utilization charges are the second largest expense incurred by the
Commission; the fiscal year 1992 expenses are estimated to be over $7 million.
The objectives of this review were to determine whether the Commission's
policies, procedures and practices for monitoring space utilization charges are
appropriate and properly administered and to identify any potential areas for
savings.

This review was conducted by Cotton & Company in accordance with the Government
Auditing Standards issued by the Comptroller General of the United States. The
results of their review are presented as an attachment to this report. They
found that the Commission's procedures were sufficient, in all material respects,
to provide for the proper payment of its space utilization charges.

The auditors had three findings.     First, the Commission does not monitor to
ensure that it is receiving fair value for extra payments for special temperature
settings. Second, the storage area at the Navy yard includes many items that
are in disrepair or are no longer of use that need to be excessed before the
Commission is forced to vacate this space. Third, quarterly billings for space
utilization charges are not reviewed and approved by the cost center manager.

Two matters were noted for management's consideration. The charges for extra
services were established through negotiations and cannot be tied to a
determination of the true value of the services; similar intensive negotiations
should be conducted in the future. In addition, from August 1989 through October
1990, taxes were improperly paid as part of the payments for employee parking
spaces. This situation has since been corrected through formal negotiations
which should be the approach used in the future.

Recommendations relating to the findings are presented on pages 10 and 11 of
the report.    In summary, we recormnend that the Director of Administration
instruct the Director of the Office of Management Services to establish policy
and procedures to monitor building temperatures and promptly dispose of all
excess property located in the Navy Yard; and instruct the Director of Finance
and Budget to provide the rent bill to the cost center manager for review and
approval.
The Director of Administration generally agreed with the findings and
recommendations. A summary of the Director's comments on the findings and our
responses are presented on pages 6 and 7 of the report. The Director's comments
are presented in their entirety as an appendix to the report.




                                 ~
                                     JA
                                    /.~.
                                           r:   /   v/.




                                    Jane E. Altenhof n
                                    Inspector General
                              TABLE OF CONTENTS


Attachment    Report on the Review of the USITC's Space
              Utilization Charges

Appendix     - Memorandum from Director, Office of Administration,
               dated July 31, 1992, on Draft Report
                                                                 Attachment




                          REPORT ON THE REVIEW OF THE
                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                           SPACE UTILIZATION CHARGES




Prepared by:

Cotton & Company
Certified Public Accountants
Alexandria, Virginia
                                     COTTON Ptmuc
                                            &COMPANY
                                                           CERTIFIED                   ACCOUNTANTS

                         100 SoUTH RoYAL STREET • A1..ExANoRlA, VIRGINIA 22314 • (703) 836-6701 • TB..ECOPIER: (703) 836~0941

          COlTON,CPA                       BItENoA N. 8uRzENsIc1, CPA                             ROBERTL     Fu:sHn. CPA       CATHERINE L   N<x:BA. CPA
CHAItLIJS HAYWARD, CPA                     MJCHAEL W GlLI.ESPIE, CPA                              l<E:vtN P. McFADDEN, CPA      Eu.EN P. RmJ, CPA

                                                                        April 16, 1992


           Ms. Jane E. Altenhofen
           Inspector General
           United States International Trade Commission
           500 E Street, SW
           Washington, DC 20436

           Dear Ms. Altenhofen:

                We reviewed the United States International Trade Commission's (ITC)
           procedures for managing its space utilization charges. This review was
           limited to determining if the Commission is properly monitoring space
           utilization charges and identifying any potential areas for savings.

                Our review was performed in accordance with generally accepted Government
           auditing standards. The review covered space utilization charges for Fiscal
           Years 1991 and 1992 and included such tests and procedures as we deemed
           necessary to meet the review objectives described above.

                Our review was made for the limited purposes described above and, as
           such, would not disclose all material weaknesses in lTC's internal control
           system. Accordingly. we do not express an opinion on lTC's internal control
           system taken as a whole.

                Based on our review for the limited purposes described above, lTC's
           procedures were sufficient, in all material respects, to provide for the
           proper payment of its space utilization charges. Our review did, however,
           disclose several conditions that we believe warrant corrective action. In
           addition, we noted certain other matters for management's consideration. The
           review's results are described in detail in the accompanying report.

                We discussed review results with the Director, Office of Administration;
           the Director, Office of Management Services; the Director, Office of Finance
           and Budget; and other headquarters personnel responsible for the overall
           management of lTC's space utilization charges.

                The accompanying report is intended solely for lTC's information and use
           and should not be used for any other purpose.

                                                                           Very truly yours,

                                                                           COTTON & COMPANY


                                                                    By:         \~
                                                                           Kevin P. McFadden, CPA
                                                                                                 r.    ).-,t~~


                                         MEMBER: AMauCAN INSTITUTE OF    CERTIFIED   Puauc Accoul'ITAl'ITS,   OMSlON FOR FmMs
                            CONTENTS


                                              Page

1   INTRODUCTION                                1
    Background                                  1
    Objectives                                  2
    Scope                                       2
    Methodology                                 3

2   REVIEW RESULTS                             4
    Findings                                   4
    Other Matters for Consideration            5
    Conclusions                                6
    Recommendations Regarding Findings         6
    Commission Comments                        6
    Suggestions Regarding Other Matters for
      Consideration                            7
    Commission Comments                        7

    APPENDIX
    Commission's Response
                          REPORT ON THE REVIEW OF THE
                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                           SPACE UTILIZATION CHARGES

                             PART 1:   INTRODUCTION


     In this part, we discuss the review background, objectives, scope, and
methodology.


BACKGROUND

     The United States International Trade Commission (ITC) is an independent
Federal agency with six commissioners, a staff of about 500, and Fiscal Years
(FY) 1991 and 1992 budgets of $40,299,000 and $42,434,000, respectively.

     The General Services Administration (GSA) is responsible for acquiring
and managing space for Federal customers. The Public Buildings Amendments of
1972 (Public Law 92-313) authorized GSA to finance its real property
management activities through user charges, set at commercially comparable
rates, collected from agencies occupying space. The current Rent System used
to set commercially comparable rates was implemented at the start of FY 1987,
replacing the earlier Standard Level User Charges or "SLUC" system. The
revenue generated from the Rent System is deposited in the Federal Buildings
Fund. The Fund is used for the operation, maintenance, protection, and repair
of GSA-owned and -leased buildings as well as for building improvements and
acquisition of space through lease, purchase, or construction.

     Space utilization charges are the second largest expense incurred by ITC.
For FYs 1988 through 1991, this annual expense was approximately $5.1 million,
$6.2 million, $6.2 million, and $6.4 million, respectively; GSA estimates FY
1992 charges to be $7.1 million. Virtually all of this expense is paid to GSA
for lTC's main building. Additional minor amounts are expended for Navy Yard
storage, parking spaces, cleaning, and utilities.

     GSA entered into a 10-year lease with Boston Properties on April 18,
1986, for the offices and related space at 500 E Street, SW. GSA and ITC
signed a Memorandum of Understanding (MOU) in November 1987, delegating lease
management responsibilities to ITC. As set forth in USITC Directive 1022.1,
dated October 31, 1988, the Office of Management Services (OMS) is responsible
for providing management and administrative support to ensure the efficient
day-to-day operation of the agency, including space management.

     The GSA Rent System is based on a 5-year cycle. Every 5 years, GSA sends
ITC a Rent Information Package that establishes commercially comparable rates.
GSA can adjust rents annually, which would be reflected in the Rent Budget
Estimate provided for each fiscal year. Until FY 1992, GSA processed its rent
bill for ITC through the Department of Treasury's On-Line Payment and
Collection (OPAC) system. Under the OPAC system, GSA electronically sent its
billing information to the Department of Treasury where the rent bill amount


                                       1
was deducted from lTC's accounts and credited to GSA.    ITC was provided
similar billing information.

     As a result of Public Law 102-140 (FY 1992 Appropriation Act for the
Departments of Commerce, Justice, and State, the Judiciary and related
agencies), ITC is to pay its FY 1992 rent through the Billed Office Address
Code (BOAC) system by having a check issued to GSA.
In addition to paying rent to GSA, ITC also incurs additional annual costs
related to its space needs that are beyond the services normally included as a
part of the GSA rent charge. These annual charges, which, with the exception
of certain Navy Yard storage space, are also paid to GSA, have been the
subject of numerous negotiations with GSA over an extended period of time and
are subject to annual renegotiation. The total FY 1991 charges for rent
(including Navy Yard storage), extra utilities, and cleaning services are:

        Purpose                                                   ~ount


        Rent (including Navy Yard storage of $142,968)          $6,424,890

        Heating, ventilation, and air conditioning
        (HVAC) for evenings, Saturdays, Sundays,
        and holidays                                               151,703

        Daytime cleaning services                                   52,416

        Proportionate share of submeter costs for
        certain areas                                               23,450

        Total                                                   $6,652,459


     ITC also incurs an added monthly cost of about $1,100 for temperature
control beyond what GSA includes as a part of its normal rent charges. ITC
makes these payments directly to Boston Properties, which manages the ITC
building.


OBJECTIVES

     We reviewed the Commission's policies, procedures, and practices for
monitoring space utilization charges to determine if they were appropriate and
properly administered and to identify any potential areas for savings.


SCOPE

     We conducted our review at ITC headquarters in Washington, DC, between
March 30 and April 16, 1992. The review focused on lTC's space utilization
charges for FYs 1991 and 1992. At the completion of our fieldwork, invoices
for rent charges for FY 1992 had not been received from GSA nor had any
payments been made. The commitment and obligation of funds, however, had
properly been made based on GSA's estimate of FY 1992 rent charges.

                                         2
     We conducted numerous discussions with the Director, Office of
Administration (AD) and his special assistant; the Director, Office of
Management Services (OMS) and his staff; and the Director, Office of Finance
and Budget (OFB) and his staff. We obtained and reviewed various records and
documents from the staff of these offices. We also obtained an understanding
of their activities for carrying out their responsibilities related to
building management and space utilization charges. In addition, we
interviewed GSA personnel familiar with, and responsible for, the issues
related to the ITC building. Also, we discussed GSA's audit efforts in
leasing operations in the National Capital Region with a GSA Office of
Inspector General audit manager.


METHODOLOGY

     We gathered data for our review through structured interviews; physical
inspection of the ITC building and the offsite property storage locations;
reviews of pertinent space utilization records, such as the MOU between ITC
and GSA, the lease between GSA and Boston Properties, rent invoices from GSA
and the related payment; invoices, and payments for ITC staff parking; and
communications among all parties involved including GSA, lTC, and Boston
Properties.

     The major guidelines and operating regulations we used to evaluate lTC's
management of its responsibilities for the ITC building and the related space
utilization charges included:

     •    GSA's publication The Federal Buildings Fund and Rent System
          (1990).

     •    USITC Directive 1022.1, Office of Hanagement Services Hission
          and Function Statement (1988).

     •    GAO's Standards for Internal Controls in the Federal Government
          (1983).

     •    Public Law 92-313, Public Building Amendments of 1972, dated
          June 16, 1972.

     •    40 USC Public Buildings, Property, and Works:

          •    Chapter 10, Management and Disposal
          •    Chapter 12, Construction, Alteration, and Acquisition of
               Public Buildings

     •    41 CFR, Subchapter D, Public Buildings and Space

     The review was conducted in accordance with the Comptroller General's
Government Auditing Standards (1988 revision).




                                       3
                          REPORT ON THE REVIEW OF THE
                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                           SPACE UTILIZATION CHARGES

                            PART 2:   REVIEW RESULTS


     Our findings, other matters for consideration, conclusions, and
recommendations are discussed in this part.


FINDINGS

     Our review of lTC's management of its system for monitoring space
utilization charges and related items, such as charges for parking spaces and
utilities, shows that the Director, AD, and Director, OMS, and staff have been
actively and aggressively involved with GSA in an extensive negotiation
process resulting in the occupancy of the ITC building and in agreements on
charges related to extra services that ITC calls for. We noted, however,
certain areas in the management of space utilization and other related charges
that warrant management's attention. These areas are discussed below.

1.   Arrangements have been made between ITC and Boston Properties, the owner
     and property manager for the ITC building, for temperature settings
     outside the range normally provided by GSA. The related additional
     charges are estimated to be about $1,100 a month and provide for the
     building to be warmer in winter and cooler in summer. Although OMS
     responds to complaints from ITG staff about the temperatures in the
     building, it does not have a monitoring program to ensure that it is
     receiving fair value for the extra payments. The lack of availability of
     this information could result in ITC incurring costs for services that it
     may not be receiving in full. A policy to require periodic measurement
     of the building temperatures, evaluating these measurements against GSA
     requirements, determining if lTC's requirements are being met, and, if
     not, meeting with the building owner to arrange for corrective action
     would assist OMS in carrying out its responsibilities in this area.

2.   lTC's storage area at the Navy Yard in Southeast, Washington, DC,
     contains many items that are in disrepair or are no longer of use and
     should be excessed to GSA. We are aware that certain actions have been
     taken in this regard, and that ITC needs the cooperation of GSA to
     effectively manage this activity. Our concern is that if decisive action
     is not taken in the near term to reduce the items stored to only those
     most necessary and in usable condition, the Government will have to incur
     unnecessary relocation costs when the pending move to the new storage
     site is finalized.

     Federal regulations require agencies to continuously survey property and
     promptly make excess property available for transfer (41 CFR 101-43.101
     and 102(b)). Failure to do so complicates ITC property management
     functions, increases storage requirements and costs, restricts the use of
     Government funds, and increases the likelihood of property being lost or

                                       4
     misappropriated. We encourage OMS to aggressively pursue the removal of
     all but the most necessary items presently in storage. We also recognize
     that the majority of the property (exclusive of records) in storage is
     such that it will result in disposal and will probably not be of use to
     other agencies.

3.   At the present time, OMS, which is responsible for facility management
     and space management for lTC, is not involved in reviewing and approving
     the quarterly billings from GSA for space utilization charges. Because
     OMS is the most knowledgeable unit in the area of space utilization, and
     is responsible for this area, its Director is the cost center manager for
     this activity. Accordingly, OMS should evaluate and approve the GSA
     charges for space. USITC Directive 2103, Cost Center Managers, requires
     the approval of the appropriate cost center manager on the procurement
     documents prior to the procurement being made.

     The billing process for space charges should be treated the same as other
     invoices processed by OFB for payment and should meet the Finance
     Division's standard operating procedures. For compliance with these
     procedures, OMS should review the GSA billings, determine if they are
     correct, and authorize OFB to make the payment or initiate action to
     obtain a corrected billing. This action by OMS will provide OFB with the
     appropriate authorization for payments to GSA for space charges and is
     consistent with the approval process in effect for other payments made by
     OFB.


OTHER MATTERS FOR CONSIDERATION

     We noted certain other matters that the Director, AD, should consider for
appropriate action.

1.   ITC has agreed to pay GSA for charges for certain extra services related
     to its occupancy of the ITC building. Although the cost of these extra
     services was arrived at as a result of GSA's negotiations with Boston
     Properties and agreed to by ITC over an extended period of time as a
     result of numerous and lengthy discussions, the true value of the
     services is not readily determinable. As opportunities arise to
     renegotiate the existing charges with GSA or Boston Properties or to
     negotiate any additional charges, we believe that the same aggressive
     action that the Director, AD, and the Director, OMS, and his staff
     previously displayed should be applied to these future discussions to
     ensure that the Government's interests are protected to the fullest
     extent.

2.   Taxes of about $7,100 for lTC's share of employee parking at Colonial
     Parking garages were improperly paid during the period August 1989
     through October 1990. Generally, purchases and leases made by the
     Federal Government are immune from state and local taxation. When
     economically feasible, agencies are to take maximum advantage of all
     exemptions from state and local taxation that may be available. In this
     case, the taxes were improperly paid because the arrangements for

                                      5
     payments were made outside the normal procurement process. As a result,
     the staff familiar with the tax exemption were not involved. The
     situation was corrected when formal negotiations were initiated.


CONCLUSIONS

     Our review disclosed no material findings pertaining to lTC's management
of its space utilization charges. The processes for these expenditures appear
to meet the needs of ITC management in accord with its policies and applicable
laws and regulations in all material respects. As noted in the report,
however, we observed certain conditions that represent opportunities for
improvement.


RECOMMENDATIONS REGARDING FINDINGS

     Our recommendations to strengthen the processes related to the Findings
section are presented below. The recommendations are in the same order in
which the findings were presented.

1.   The Director, AD, should instruct the Director, OMS, to establish a
     policy and related procedures that require periodic measurement of the
     building temperatures to determine if the temperatures are consistent
     with those Boston Properties has agreed to provide at extra cost to lTC.
     These procedures should also provide for appropriate action should it be
     determined that the agreed-upon temperatures are not being provided.

2.   The Director, AD, should instruct the Director, OMS (who also functions
     as the Property Management Officer) to take aggressive action to
     identify, report, and dispose of all excess property located in the Navy
     Yard storage space. This action should be taken in the near future so
     that all but the most necessary items are removed from lTC's control
     before the pending move to the new storage site is finalized. Also, once
     the storage is moved to the new site, the Director should periodically
     evaluate the storage space needs to ensure that lease charges are
     incurred only for the required amount of space.

3.   The Director, AD, should instruct the Director, OFB, to provide the
     Director, OMS, the GSA rent bill to review and approve the GSA charges
     for leased space or initiate action to obtain a corrected billing as cost
     center manager for space charges. This action will result in space
     charges being treated in the same manner as other invoices processed by
     OFB for payment.


COMMISSION COMMENTS

     The Director, AD, responded in writing to our recommendations (see
appendix). He agreed with our recommendations and provided comments on the
actions taken and those that are planned. These actions should result in


                                      6
improved processes for managing lTC's space utilization charges, its disposal
of excess property, and its needs for storage space.


SUGGESTIONS REGARDING OTHER MATTERS FOR CONSIDERATION

     Our recommendations regarding other matters for consideration are
presented below. The recommendations are in the same order in which the other
matters for consideration were presented.

1.   The Director, AD; the Director, OMS; and the OMS staff must continue to
     be actively involved with GSA and Boston Properties, where appropriate,
     in carrying out their building management responsibilities. They must
     also continue to be aggressive and strive for specificity in all future
     negotiations in areas such as rates charged and services provided. It is
     only through these continued actions that ITC can be assured it is
     receiving a fair value for its expenditures related to the management of
     its leased space.

2.   The Director, AD, should reinforce to all ITC staff and, specifically, to
     AD staff, that in all instances where a purchase of goods and services is
     to be made (exclusive of imprest fund transactions), the appropriate and
     established procurement processes utilizing the services of the
     Procurement Division must be followed.


COMMISSION COMMENTS

     The Director, AD, responded in writing to our suggestions regarding other
matters for consideration (see appendix). He agreed with our suggestions and
provided comments on the actions taken and those that are planned. These
actions should result in improvements regarding lTC's building management
responsibilities and its overall procurement activities.




                                      7
                                                                 Appendix
                                                  AJ)... P-499




July 31, 1992




'1'0:         Inspector General                      ....tf!
PROlI:        Director, Office of   AdministratiO~'~~~~

SUBJECT:      Draft: Report, -:Review of US:ITC's Space
              Utilization Charges
As requested by your memorandum dated JuDe 15, 1992
(:IG-P-032), submit:ted herewith is ehe O~fice o~
Administration-s response to Che subject draft audit
report issued JUne 15, 1992. Xn accordance with Section
11 of the USITC Directive 1701, the Commissioners have had
an opportunity to comment on the response and the Chai%mB.n
has approved it with modif1cat:ions (see attached
memcrandtun). (Memo not included)
The Office of Adm~nistration agrees with all the audit
recommendations. The attached response includes the
actions to be taken and the target completion dates.
Please call me at 205-3131 or Bill Stuchbery at 205-3135
if you have any questions.

A'1"1'ACBMEN'l'S

cc:      Director, Office of p~ce and Budget
         Director, Office of KaDagement Services
SPACE UTILIZATION CHARGES

RECOMMENDATION:
1. The Director of Administration should instruct the
   Director, OMS, to establish a policy and related
   procedures that require periodic measurement of the
   building temperatures to deteDmine if the building
   temperatures are consistent with those Boston
   Properties has agreed to provide at extra cost to the
   ITC. These procedures should also provide for
   appropriate action should it be deteDmined that the
   agreed upon temperatures are not being provided.
RESPONSE: AGREE
     The Director of Administration has verbally instructed
     the Director, OMS to take appropriate action. The
     Director, OMS has initiated a procedure by memorandum
     (See Attachment 1). These procedures will include the
     criteria contained in the second finding of Cotton and
     Company's report. The procedures will include a
     requirement to document the periodic evaluation.
TARGET COMPLETION DATE:        September 15, 1992

RECOMMENDATION:
2.   The Director of Administration should instruct the
     Director, OMS (who also functions as the Property
     Management Officer) to take aggressive action to
     identify, report and dispose of all excess property
     located in the Navy Yard storage area. This action
     should be taken in the near future so that all but the
     most necessary items are removed from lTC's control
     before the pending move to the new storage site is
     finalized. Also, once the storage is moved to the new
     site, the Director should periodically evaluate the
     storage space needs to ensure that lease charges are
     incurred only for the required amount of space.
RESPONSE: AGREE
     The Director of Administration has verbally instructed
     the Director, OMS to take aggressive action. GSA on
     1/29/92 completed the transaction of disposing by sale
     all of lTC's useful excess property located in Building
     197, Navy Yard. GSA has granted to the ITC approval to
     dispose of a significant amount of the remaining
     property which is no longer of any use to the
     Government. It will be disposed of prior to the move
   to the new storage site in Forrestville, Maryland.
   The Property Management Officer will maintain his
   at~ention regarding the most effective and efficient
   uses or return of leased storage space.
TARGET COMPLETION DATE:      September 30, 1992

RECOMMENDATION:
3. The Director of Administration should instruct the
   Director, OFB, to provide the Director, OMS, the GSA
   rent bill to review and approve the GSA charges for
   leased space or initiate action to obtain a corrected
   billing as cost center manager for space charges. This
   action will result in space charges being treated in
   the same manner as other invoices processed by OFB for
   payment.
RESPONSE: AGREE
   The Director of Administration has verbally instructed
   the Director, OPE to take appropriate action. He has
   instructed OPE staff to ensure that the Director,
   Office of Management Services is provided with: (1) a
   copy of the annual GSA rental charge estimates each
   year when they become available; and, (2) the GSA
   quarterly rent bill for approval in the same manner all
   other invoices are approved by cost center managers
   (See Attachment 2).
TARGET COMPLETION DATE:   Completed

OTHER MATTERS FOR CONSIDERATION
RECOMMENDATION:
1. The Director of Administration, the Director, OMS, and
   OMS staff must continue to be actively involved with
   GSA and Boston Properties, where appropriate, in
   carrying out their building management
   responsibilities. They must also continue to be
   aggressive and strive for specificity in all future
   negotiations in areas such as rates charged and
   services provided. It is only through these continued
   actions that ITC can be assured it is receiving fair
   value for its expenditures related to the management of
   its leased space.
RESPONSE: AGREE
   The Director, OMS, and OMS staff will continue to
   aggressively pursue all its building management
   responsibilities.
TARGET COMPLETION DATE:   Completed


SUGGESTION:
2. The Director of Administration should reinforce to all
   ITC staff and, specifically, to Office of
   Administration staff, that in all instances where a
   purchase of goods and services is to be made (exclusive
   of ~prest fund transactions), the appropriate and
   established procurement processes utilizing the
   services of the Procurement Division must.be followed.
RESPONSE: AGREE
   Directive 3601, Contracting and Procurement Policies
   and Procedures, is currently being revised and will be
   reissued to close out a previous audit of procurement
   policies and procedures. At the t~e it is issued the
   Director of Administration will send a copy to all
   employees with a covering memorandum emphasizing their
   responsibility to adhere to the Directive. The
   Director of Administration through his regular staff
   meetings will reinforce this requirement within
   Administration. Additionally, this emphasis will be
   made through periodic procurement workshops for the
   designated liaisons in each office of the Commission.
TARGET COMPLETION DATE:      September 30, 1992
UNITED STATES INTERNATIONAL TRADE COMMISSION

                        WASHINGTON. DC 20436


                                                July 2, 1992


'l'O:        Kristin F. Krake, Chief
             Administrative Services Division

FRC!I:       David E. Spencer, Director      ~~
             Office of Management Services   ~ -f--·~--- -

SDBJBC'1':   Above Standard Temperature Validation

It is the policy of the usrrc that appropriate action should be
taken to ensure that the Government is receiving fair value for
the funds it expends.

The purpose af this memorandum is to direct you to establish
appropriate procedures to ensure that the USITC is receiving
temperatures consistent with those Boston properties has agreed
to provide at extra cost.    Said procedures should include but
are not limited to random sampling at random times and in random
locations.   Maxi mum use of alternate work schedule employees
should be utilized to minimize costs.

Please report to me no later than August 1,           1992 regarding
action taken.
           . __   .._----------------~--


UNITED STATES INTERNATIONAL TRADE COMMISSION

                        WASHINGTON. DC 20436

June 18, 1992



MEMORANDUM


TO:            Chief, BUdget Division
               Acting Chief, Finance Division

FROM:          Director, Office of Finance and

SUBJECT:       Certification of Rental Charges


Please take appropriate action to ensure that: (1) a copy of the
annual GSA rental charge estimates are provided to the Director,
Office of Management Services each year when they become
available; and (2) the GSA quarterly rent bill is forwarded to the
Director, Office of Management Services for approval in the same
manner all other invoices are approved by cost center managers.
